<html>
<title> - THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION</title>
<body><pre>[Senate Hearing 109-771]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-771
 
          THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
32-203                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
                   Bill Brew, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           September 20, 2006
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Burr, Hon. Richard, U.S. Senator from North Carolina.............     3
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     4
Murray, Hon. Patty, U.S. Senator from Washington.................     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................     6
Thune, Hon. John, U.S. Senator from South Dakota.................     8
Neal, Hon. Richard, U.S. Representative from Massachusetts.......     8

                               WITNESSES

Morin, Paul, National Commander, The American Legion; accompanied 
  by Steve Robertson, Director, National Legislative Commission; 
  David Rehbein, of Iowa, Chairman, National Legislative 
  Commission; K. Robert Lewis, of Connecticut, Chairman, National 
  Veterans Affairs and Rehabilitation Commission; and Peter 
  Gaytan, Director, National Veterans Affairs and Rehabilitation 
  Commission.....................................................    10
    Prepared statement...........................................    19


          THE LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

                              ----------                              


                           SEPTEMBER 20, 2006

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-106, Dirksen Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Burr, Thune, Isakson, Jeffords, 
Murray, Obama, and Salazar.

      OPENING STATEMENT OF HON. LARRY E. CRAIG, CHAIRMAN, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen.
    The Committee on Veteran's Affairs of the U.S. Senate will 
come to order.
    It is a pleasure to welcome all of you to this hearing of 
the Senate Committee on Veteran's Affairs today. First of all, 
I want to thank all of you for your service to our country and 
for your service to our Nation's veterans. I want to especially 
extend a special thanks to the American Legion members who are 
here from my home State of Idaho: State Commander Wayne 
Mitchell; Rickey Helsley, who is the adjutant; Mel Napier, my 
liaison, along with Jim Kempton, who is Chairman of the 
Veterans Commission. Gentlemen, would you please stand.
    Thank you.
    [Applause.]
    Chairman Craig. Thank you for being here. I was going to 
joke with Judge Lance, if he were here. But I do not see Al in 
the audience, and it is a good thing he is not here. He has 
many cases to adjudicate over at the court. So he is at work on 
behalf of veterans, and that is where he ought to be. But I 
would be remiss, of course, if I did not recognize Al Lance, 
and at least his presence in our Nation's capital.
    Mr. Commander, I want to congratulate you on your new title 
and thank you for being here today, for bringing your career of 
dedicated service to veterans to this job. I understand that 
you have many issues that you want to discuss today, and I look 
forward to hearing your comments for the record, for this 
Committee, and for the U.S. Senate. But I also, most 
importantly, want to thank you for this distinguished 
organization recognizing your leadership and allowing you to 
carry it on.
    I also want to recognize the Immediate Past Commander, 
National Commander, Tom Bock. Tom, it is nice to see you.
    Thanks for being here.
    [Applause.]
    Chairman Craig. As your testimony will, no doubt, highlight 
today, there are many issues facing veterans and their families 
today. Since becoming Chairman of the Senate Veterans' Affairs 
Committee, I have made it my priority to take a hard, honest 
look at VA services and how they are delivered, particularly to 
returning servicemen and women of Operation Iraqi Freedom and 
Operation Enduring Freedom. It is critical that we meet the 
needs not only of our older veterans, but also of those 
returning from the battlefield of today.
    We continually evaluate the challenges associated with the 
seamless transition from active duty into the life of a 
veteran, and we want to make some progress in these programs, 
such as adaptive housing. We are revisiting the educational 
programs. I have just announced today, along with Danny Akaka, 
my Ranking Member, that we are going to advance the cause of 
the spouse for that injured veteran as it relates to the 
educational benefits that are entitled but are simply staged 
out down the line. And we want to make sure that those are 
available as quickly as possible.
    We are dealing with America's heroes of the past and 
America's heroes of today, and we want to make sure that they 
are responsibly and appropriately dealt with on behalf of 
Americans.
    As the Chairman of this Committee, over the course of my 
chairmanship we have activated the Committee in a way that it 
probably has not been active in a good number of years: 23 
hearings, 9 field hearings, 4 markups, and this year already 
over 20 hearings to deal with those critical issues that all of 
us are concerned about. I am particularly proud of a few of the 
Committee's accomplishments, and I would like to take just a 
moment to mention those.
    I want to tell you a story about three young fellows who 
visited my office in Washington last fall. One of those young 
men had only one leg. The other had no legs. And the other 
gentleman had no eyes. They had been out there in the battle of 
the war on terrorism.
    These three gentlemen had identified a problem. They came 
to my office to see if I might help them solve it. I listened 
to their presentation. It was clear they had done their 
homework. When the meeting was over, I was moved because of 
their passion and their motivation and their dedication, and we 
introduced legislation.
    Immediately following the meeting, I turned to my 
colleague, Danny Akaka, and out of that came the Wounded 
Warrior Traumatic Injury Insurance Protection program. As many 
of you know, under the bill those wounded since the start of 
OIF and OEF will receive immediate financial payments ranging 
from $25,000 to $100,000 for qualifying injuries. Already, 
nearly 2,700 servicemembers with traumatic injuries have 
received payment under the program. They come from all over 
America, and there are 18 from my State of Idaho. These are 
brave men and women who have lost a limb, who are deaf or who 
are blind, or who may be paralyzed or severely burned, who 
deserve that kind of immediate treatment; or they may be 
suffering from the effects of traumatic brain injury. I have 
met with a few of those recipients. The program is working. It 
is working very well. It is helping them, their loved ones, and 
their families.
    In addition to the Wounded Warrior Program legislation, 
Congress passed legislation to direct DOD to provide Web-based, 
customized, integrated information to survivors about their 
Federal benefits. This Committee held hearings on this topic, 
and I was surprised to learn that DOD had not already been 
doing this. There was simply not an integrated informational 
flow to the survivor of one of our lost warriors. It was simply 
unacceptable to me and to the Committee. In the midst of their 
grief, widows and widowers were expected to navigate a complex 
web of Federal bureaucracy to receive the much needed benefits 
and assistance by law they were entitled to have.
    The good news is we have fixed that problem or, should I 
say, we are fixing it because we are monitoring it closely now 
that the software is in place to make sure that it works and 
works well and there is one-stop shopping for the benefits that 
these survivors should expect.
    Third, we passed the VA Cost-of-Living Adjustment Act in 
2005, and, of course, you all know this legislation provided a 
4.1 percent increase in VA disability compensation and survivor 
programs.
    We also passed legislation to close the so-called parole 
loophole. As you know, prior to the enactment, Arlington and VA 
National Cemetery burials and funeral honors were provided for 
certain capital offenders. I believed that was wrong, the 
Committee believed that was wrong, and the loophole was closed.
    Finally, the Respect for America's Fallen Heroes Act was 
signed into law in May 2006, and I am proud that this new law 
will preserve the honor of our military funerals by 
criminalizing demonstrations at our National Cemeteries while 
sustaining the property rights of private landowners around 
those cemeteries. The Senate has also provided legislation to 
provide cost-of-living adjustments to disability compensation 
to improve insurance, housing, and other benefits, and to 
provide enhancement for our health care programs.
    Well, I am sure I could go on and on, but the American 
Legion and its auxiliary has been there all along, working with 
us to assure that we get it right as we work with America's 
veterans. So, Mr. Commander, you can be proud of your 
organization and the people you have working with in the 
benefit of that organization that we work closely with here.
    Before I turn to the gentleman who is here to introduce 
you, let me turn to some of my colleagues here on the 
Committee. Senator Burr, do you have any additional comments 
you would like to make?

                STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, just very briefly, let me 
recognize my colleague from the House, Richard Neal, a 
tremendous supporter of our veterans. I welcome the Commander 
and want to tell him that I look forward to his testimony and 
how much importance I put on the input that he'll supply us.
    And I think the Chairman deserves a tremendous amount of 
credit. It has been he and the Ranking Member that have driven 
much of the legislation that he has highlighted. And I think 
without his level of enthusiasm and his feeling of 
responsibility--and I stress that--I am not sure that this 
Committee would have accomplished as much as it has.
    We are not totally there. We will never, Commander, hear 
you come and say everything is perfect. That is a goal. And 
though I know as time goes on your 2.7 million member roster 
will continue to grow, it is important that we here and around 
the country remember that the commitment that we made was not 
simply to the greatest generation and to those who served in 
Korea and to those who served in Vietnam. It is those that 
serve today, and we have got to be as focused on tomorrow as we 
are with the challenges in front of us today.
    Your organization helps us to remember that outstanding 
obligation and the responsibility that we have to make sure 
that future members who sit on this side as well as on that 
side understand what the commitment is.
    I thank the Chair.
    Chairman Craig. Thank you, Senator.
    Senator Johnny Isakson, from the great State of Georgia.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. I also will be brief. I want to welcome 
Richard Neal. I had the privilege of serving with him for 6 
years in the House. He does a great job. We are glad to have 
you.
    And I am very honored to have Commander Morin here. I am a 
Legion member of the American Legion Post in Loganville, 
Georgia, and Bud Boss has me always mention his name because he 
usually watches C-SPAN. So I am here, Bud. Support the American 
Legion.
    I also want to welcome Roger Tingler from Covington, 
Georgia, and Charles Barrett from Smyrna, Georgia, my home 
county of Cobb County in the State of Georgia. We are delighted 
to have you here. The American Legion is a great organization. 
I think our Chairman has done a magnificent job of responding 
to the critical needs that have been brought to us by the 
American Legion, and I am proud to serve with him and work with 
you, Commander Morin, for the betterment of those who have 
served our country so notably and so honorably. And I 
appreciate the time, Mr. Chairman.
    Chairman Craig. Senator, thank you very much.
    External communication via C-SPAN is not accepted.
    Senator Isakson. It is not accepted?
    [Laughter.]
    Senator Isakson. I am sorry, Bud. I tried.
    Chairman Craig. We are not supposed to play to the cameras.
    Now let me recognize Senator Patty Murray of the State of 
Washington, who is a very outspoken advocate for America's 
veterans and for the veterans in her State.
    Patty?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, thank you very much, Mr. Chairman. I 
appreciate your holding this hearing, and, Commander Morin, to 
you and all your dedicated staff, thank you for being a 
tremendous voice for so many veterans out there. I really 
appreciate it.
    I want to welcome leaders from my home State of Washington: 
Bob Wallace, who has just been great. Kathy Nyland from Seattle 
is here as well. They have just been fabulous to work with, and 
I have been very proud to stand shoulder to shoulder with them 
on many, many occasions.
    Mr. Chairman, I did want to take just a minute this morning 
to talk about a new report that just came out from the 
Government Accountability Office. Senators Akaka, Durbin, 
Salazar, and Chairman Buyer asked for it to find out why the VA 
was so wrong in its budget projections back in 2005 and 2006. 
And we now have that GAO report. It is out today. And, frankly, 
Mr. Chairman, the answers are pretty damning, and they really 
cast doubt on whether or not we can rely on the VA for accurate 
numbers and straight answers.
    It had three really important findings. It said, first of 
all, that the GAO found that the VA knew that it had serious 
problems with its budget, but it failed to notify us in 
Congress. And it suggests that the VA could still be sending us 
inaccurate information in its quarterly reports.
    Second, the GAO found that the VA was basing its budgets on 
unrealistic assumptions, errors in estimation, and insufficient 
data.
    And, finally, the GAO found that the VA did not have a plan 
to meet the needs of all the servicemembers from the conflicts 
in Iraq and Afghanistan. The report doesn't comment on the 
situation today, but looking at the CBO submission and other 
data, I am very concerned that the lack of a plan today may 
continue to affect the VA and whether or not we have sufficient 
funding.
    Frankly, for me, one of the most disturbing findings as I 
read through this report last night, is that the VA kept 
assuring us in Congress that everything was fine, but inside 
the VA, at the very time they were telling us everything was 
OK, it was very clear that they knew that there were 
shortfalls.
    I have a timeline and I don't want to take the Committee 
through it all right now, but I think you all remember that I 
kept saying back in October of 2004 that we had problems. But 
the VA, even though they knew it inside the VA, did not admit 
it until 2005. And, really, our American veterans have paid the 
price of that.
    I will take time later to walk through the outline of all 
they knew and were doing inside the VA and not telling us, Mr. 
Chairman. But I think that our American veterans deserve a real 
answer, and I think this report, as more people are aware of 
its findings, are going to find out that the VA was not telling 
Congress and is actually fighting those of us who are trying to 
make it work right.
    So, Mr. Chairman, I really hope that Secretary Nicholson 
can come before us and we can get some real answers and we can 
make sure that the VA does not repeat the mistakes of the past 
2 years. And I think we owe it to the veterans who are 
sacrificing so much for all of us today.
    Mr. Chairman, I also would note that the report suggests 
that even in its latest quarterly report to it that we require 
them to do, the VA is slow to report and does not provide us 
key information that we are required to know in order to make 
decisions like how long it takes veterans to get their first 
appointment. I think all of us deserve an explanation of why 
the VA was not honest with us about their so-called management 
efficiencies, but that the GAO found in this report were 
nothing but hot air, and that the VA consistently for 4 years--
4 fiscal years, 4 budgets, and 4 appropriations cycles--were 
not telling us the truth. I think that it is critical that this 
Committee understand that and that we make sure that the VA is 
not continuing in that way, and I hope that we can do it. But 
for today, Commander Morin, I think that this report that came 
out gave you and the Independent Budget leaders an even larger 
voice.
    And, I think, it is a tremendous measure of credibility 
that you put that out, and you were right, and we need to 
continue to listen to what you have to say to us.
    It is unfortunate the VA did not listen, Congress did not 
listen, the White House did not listen, and the American 
veterans, who you serve, deserved everybody to listen. So I 
think we have a lot of work ahead of us. I hope that all of us 
are committed to getting to the bottom of this new GAO report, 
and more importantly, learn from those mistakes so that we are 
not continuing to make them, because we do have a number of 
Iraq war veterans who are returning yet who are not part of the 
VA system who I believe we are not budgeting for, and we are 
all going to pay the price.
    Thank you, Mr. Chairman.
    [Applause.]
    Chairman Craig. Patty, thank you.
    Now let me recognize Senator Ken Salazar, the State of 
Colorado. Ken?

                STATEMENT OF HON. KEN SALAZAR, 
                   U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Craig, and 
thank you, Senator Murray, for your comments as well.
    Chairman Craig, I would hope that perhaps this Committee 
could take both the VA and the GAO report and look at some of 
the very important----
    Chairman Craig. It will be dealt with appropriately.
    Senator Salazar. I appreciate that very much, Chairman 
Craig.
    I want to thank the American Legion for being here with us 
today as we hear from our Nation's veterans about what your 
needs and your concerns are. As the Nation's largest veterans 
service organization, the American Legion does great work on 
behalf of its 2.7 million members, and I am proud of that work.
    As I have stressed before, it is important for those of us 
in Congress to hear about veterans' issues from the perspective 
of the veterans themselves. Our priorities should be your 
priorities. You are here to tell us what we can do better to 
serve you, and we are here to listen.
    I am happy to welcome Mr. Paul Morin, the new National 
Commander of the American Legion, to share your critical 
perspective. I thank you for coming. I appreciate your 
leadership on these issues and your willingness to be an 
advocate for our Nation's veterans.
    While I am sad to see my Commander from Colorado, Tom Bock, 
here today not as a current Commander, I am very proud of the 
service that he has given to the American Legion, and I am 
confident that he will continue to give great service to the 
American Legion and to our veterans in the future.
    We owe our veterans a debt we can never fully repay. When 
our Nation called on them to serve, these brave men and women 
answered that call with unwavering and selfless dedication. Now 
they are calling on us. They are calling on us to live up to 
our promises, to provide them with high-quality health care to 
compensate them for disabilities they have incurred as a result 
of their service, and to help make sure they have adequate 
employment and a roof over their heads.
    We must answer this call, and we must answer it with the 
same steadfast commitment our veterans have given to our 
Nation. In my view, answering that call starts with ensuring 
mandatory funding for the VA's health care system.
    Simply put, our veterans need to know that funding for the 
health care that they have earned is not susceptible to the 
budgetary ups and downs of Washington, DC. They need to know 
that it will be here today, tomorrow, and in future years. I 
have cosponsored legislation to ensure that funding for VA 
health care is guaranteed, and I am glad to have the support of 
the American Legion in those efforts.
    In addition, I share in your concerns about recent 
proposals to limit the ability of certain veterans, namely 
Priority 7 and 8 veterans, to access the VA health care system 
by establishing new enrollment fees and increasing copays and 
premiums for these veterans. I am hopeful that as the 
Administration and Congress look ahead to next year's budget, 
efforts to balance the beginning on the backs of our veterans 
will not be the way that we resolve some of our Federal deficit 
issues.
    Let me just conclude by saying that I have very much 
enjoyed the work with the American Legion, and my good friend 
Jim Stankle from Routt County, Colorado Springs, who also is in 
the audience, I welcome him here to Washington, DC.
    Thank you, Mr. Chairman.
    Chairman Craig. Ken, thank you very much.
    Lastly, let me turn to Senator John Thune, who has just 
arrived. John, do you have any opening comments?
    Senator Thune. Thank you. What was that?
    Senator Burr. Briefly.
    Chairman Craig. That is correct. Brief opening comments.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. You made everybody else be brief, right, Mr. 
Chairman? Especially my colleague from North Carolina here.
    I appreciate very much having the American Legion in front 
of us today, Mr. Chairman. Thank you for holding this hearing. 
I want to recognize Paul Evenson and Gene Schumacher, who have 
traveled here from South Dakota, representing the American 
Legion in my great State. It has been an honor to be able to 
work with him as the Senator from South Dakota, and 
particularly as we have worked to pass a constitutional 
amendment to allow Congress to prohibit the desecration of the 
American flag.
    I also want to extend a warm welcome to Paul Morin, the new 
National Commander of the American Legion. I have had the 
privilege of meeting and working with him on a couple of 
occasions already in South Dakota and here in Washington. I 
know he will serve his fellow legionnaires in a very, very 
effective way.
    As we work to complete the veterans' budget for fiscal year 
2007 and prepare for fiscal year 2008, we want to take into 
careful consideration the views of the American Legion.
    I look forward to today's testimony and, again, Mr. 
Chairman, want to thank you for inviting this very 
distinguished veterans service organization to present their 
views to our Committee.
    Thank you.
    Chairman Craig. John, thank you very much.
    Now let me turn to Representative Richard Neal, the 2nd 
Congressional District of the great State of Massachusetts, for 
the introduction of our National Commander. Richard?

                STATEMENT OF HON. RICHARD NEAL, 
            HOUSE REPRESENTATIVE FROM MASSACHUSETTS

    Mr. Neal. Thank you very much, Mr. Chairman, and thanks to 
Members of the Committee who are assembled this morning as we 
await testimony from Mr. Morin and other members of the 
American Legion.
    I want to thank Mr. Burr and Mr. Thune and Mr. Isakson 
because I did serve with them in the House of Representatives, 
and they brought great honor to that institution, and any 
differences that we had along political lines were quickly put 
aside based and formed on the friendships that we held for each 
other. And to Senator Murray and to Senator Salazar, as I have 
gotten to know you two, we are very grateful, along with 
Chairman Craig, for the advocacy you bring to veterans' 
affairs.
    Mr. Chairman and Members of the Committee, we frequently in 
Washington use the term ``honor''--sometimes lightly and 
sometimes in a very serious vein. But today the term ``honor'' 
reverberates throughout this chamber, and it reverberates 
because of the men and women sitting behind me who have so 
honorably served this Nation in time of peril.
    And we recall today the honor that comes to those who have 
served America, even as we meet, across the globe, including 
the 146,000 soldiers in Iraq and in Afghanistan.
    I do not have a prepared statement this morning as I 
introduce Paul Morin, and the reason I do not is because I do 
not need one. This is an honor for me today to introduce him. 
We have been friends for more than 30 years. And part of the 
relief I feel today, as you indicated in your opening comments, 
Senator Craig, about his advocacy and hearing from him, I have 
had to listen to him for 30 years.
    [Laughter.]
    Mr. Neal. And never has he missed an opportunity but to 
pursue and advocate on behalf of America's veterans.
    Where we live in the Pioneer Valley, as well as across the 
2nd Congressional District, there are many American Legion 
Posts, many VFW Posts, but they all have in common the basic 
notion of honorable service to our Nation--again, during 
difficult times and even in moments of peace.
    Paul Morin, in every sense of the term, is Mr. Citizen, not 
just because of the Legion hat and the new title of National 
Commander that he holds today, but because of the involvement 
that he brings back home in Chicopee, Massachusetts, to a 
variety of tasks. He is active across that community. Everybody 
in the city of Chicopee in western Massachusetts, they know 
Paul Morin.
    But let me tell you the best anecdote that I can this 
morning. About a week and a half ago, I visited the Holyoke 
Soldiers Home to see some old friends, as I do, not an official 
visit, not an announced visit. But as I traveled through the 
hallways and many of the veterans there recognized me, they all 
said what great care and treatment they receive at the Holyoke 
Soldiers Home that he presides over. And he does it with great 
energy and great dedication every day. That is the best 
testament I can think of today to Paul Morin, the manner in 
which he services veterans from many of the conflicts of those 
who sit in that soldiers home today, sometimes in wheelchairs, 
sometimes finding it hard to get around. But every moment they 
could be sure that it is the professional maintenance of that 
facility as well as the advocacy of Paul Morin that ensures 
that they get first class care.
    We made a contract with our veterans, and it is a permanent 
contract. It is not renewable year to year. It is something 
that we have to see through to its end. And in the case of Paul 
Morin, whether or not it was education, employment, or health 
care, he has been in the vanguard of veterans' advocacy.
    Being a veteran himself during the Vietnam era, I think he 
has witnessed firsthand the needs of our veterans across this 
Nation.
    I want to say this, if I can: Many of us in public life, we 
travel to the ceremonies in which these individuals are 
elevated to high honor. We go to those events at the American 
Legion halls, and they are part of our litany of 
responsibilities that we have, and then we move on perhaps to a 
PTA meeting, or perhaps we move to the next meeting of the 
Chamber of Commerce or to visit with labor unions and others in 
our districts. People like Paul Morin, they have a blind eye to 
individuals because of political persuasion or their 
professional achievements, as long as they are members of that 
alumni called the veterans of America. He has distinguished 
himself as their advocate. There isn't any place I would have 
been this morning, but right here introducing my friend, the 
National Commander of the American Legion to all of you. Again, 
my friend, and this honor, Paul Morin.
    [Applause.]
    Chairman Craig. Commander, with that very eloquent and 
appropriate introduction, please proceed.

 STATEMENT OF PAUL A. MORIN, NATIONAL COMMANDER, THE AMERICAN 
  LEGION; ACCOMPANIED BY STEVE ROBERTSON, DIRECTOR, NATIONAL 
   LEGISLATIVE COMMISSION; DAVID REHBEIN, OF IOWA, CHAIRMAN, 
     NATIONAL LEGISLATIVE COMMISSION; K. ROBERT LEWIS, OF 
     CONNECTICUT, CHAIRMAN, NATIONAL VETERANS AFFAIRS AND 
REHABILITATION COMMISSION; AND PETER GAYTAN, DIRECTOR, NATIONAL 
         VETERANS AFFAIRS AND REHABILITATION COMMISSION

    Mr. Morin. That is why he had no challenge in yesterday's 
election in Massachusetts.
    [Laughter.]
    Mr. Morin. Chairman Craig and Members of the Committee, it 
is an honor for me to appear before this distinguished body to 
present the American Legion's legislative priorities.
    Congressman Neal, thank you for taking the time out of your 
busy schedule to introduce me today. I thank you for your 
friendship as well as your dedication to doing what is right 
for America. Your unwavering support for our veterans issues as 
well as protecting our great flag. It is a clear indication to 
the voters of Massachusetts that they are well represented. I 
look forward to our continued friendship and continuing to work 
this year side by side in my term as National Commander of the 
American Legion. Thank you, Congressman Neal.
    With your permission, Mr. Chairman, I would like to 
recognize a few outstanding leaders and veterans' advocates in 
the audience today. First, please allow me to introduce our 
National Vice Commanders: Byron White, of Alabama; Elgin 
Wahlborg, of Kansas; Lloyd H. Woods, of Maine; Robert Lahiere, 
of Tennessee; and Allan C. Setterberg, of Utah.
    [Applause.]
    Mr. Morin. Thank you. Also with us today are a number of 
past National Commanders who have given a year of their life in 
service to our great organization. I would ask that they stand 
and be recognized at this time. Commanders?
    [Applause.]
    Mr. Morin. It is my pleasure now to introduce the President 
of the Nation's largest patriotic women's organization in the 
world, the American Legion Auxiliary National President Ms. 
Joann Cronin, of Missouri. Joann?
     [Applause.]
    Chairman Craig. Joann, welcome to the Committee.
    Mr. Morin. With President Cronin are a number of national 
officers and past National Presidents of the 21 American Legion 
Auxiliary, and I would ask that they stand to be recognized
    [Applause.]
    Mr. Morin. I also would like to recognize the Commander of 
the Sons of the American Legion, Earl Ruttkofsky, of Michigan, 
who is with us today.
    [Applause.]
    Commander Morin. I take this moment to recognize two 
individuals who direct our national staff and do an outstanding 
job in service to America's veterans, our National Adjutant, 
Robert Spinogle, and the Executive Director of our Washington 
Office, John Summer, if they would please stand.
    [Applause.]
    Mr. Morin. I would like to take this opportunity to 
recognize the one person who has been the key to my success in 
this organization and in life. The road to becoming National 
Commander is paved with sacrifices, and this wonderful woman 
has sacrificed quite a bit in her support of my service with 
the American Legion, and I would not be here today without her 
help, her love, and her friendship----
    Elaine.
    [Applause.]
    Mr. Morin. Mr. Chairman and Members of the Committee, the 
American Legion has a proud tradition of advocating on behalf 
of America's veterans, and this testimony reflects our 
commitment to ensuring VA is capable of meeting its obligation 
to all American veterans.
    VA has managed to live up to its proud history of caring 
for American heroes despite shortfalls in funding. The selfless 
dedication of VA employees is the driving force behind the 
incredible change in the quality of VA health care. The horror 
stories of wounded servicemembers returning from war and being 
warehoused in ill-equipped VA hospitals is now thankfully just 
a memory. It is difficult to imagine that the current VA 
system--which has scored higher in quality than any private 
health care facility for the past 6 years--was once being 
considered for closure by Congress. That quality of care is 
directly attributed to the hard-working staff at the VA, and I 
applaud them.
    Each generation of veterans has earned the right to quality 
health care and transitional programs available through the 
Department of Veterans Affairs. The American Legion will 
continue to work with both committees to ensure that the VA is 
indeed capable of providing ``care for him who shall have borne 
the battle and for his widow and his orphan.''
    With young American servicemembers continuing to answer the 
Nation's call to arms in every corner of the globe, we must 
now, more than ever, work together to honor their sacrifices. 
As veterans of the global war on terrorism return home, they 
are turning to the VA not only for health care but also for 
assistance in transitioning back to the civilian world.
    In order for that to occur, veterans service organizations 
must be afforded the opportunity to present testimony before 
the very committees that oversee the operations of the 
Department of Veterans Affairs. Mr. Chairman, it is unfortunate 
that we are not joined this morning by your colleagues from the 
House Veterans' Affairs Committee. While we are thankful for 
the opportunity to address this esteemed body, we are 
disappointed in the decision of the Chairman of the House 
Veterans' Affairs Committee not to join us here today.
    Historically, the Veterans' Affairs Committees in both 
Houses have been an example of bipartisan progress. However, 
that seems to be quickly fading from the norm. I thank you, 
sir, for not silencing the voice of American veterans and 
allowing me to speak today on behalf of 2.7 million members of 
the American Legion. We owe it to the brave men and women who 
have served and who are now serving to work together to ensure 
VA is funded at levels that will allow all enrolled eligible 
veterans to receive quality health care in a timely manner.
    As National Commander of this great organization, I am 
ready to work with you to accomplish this goal.
    Proposals to improve the VA budget by charging veterans 
increased copayments for prescriptions and outpatient care is 
not the solution to adequate funding. Balancing the VA budget 
on the backs of American veterans is wrong.
    Ensuring VA is funded at levels that will allow all 
eligible veterans to receive care is the solution.
    The American Legion recommends $36 billion in discretionary 
funding for veterans health care in fiscal year 2008.
    In an effort to provide a stable and adequate funding 
process, the American Legion fully supports assured funding for 
veterans medical care. Under the current discretionary funding 
method, VA health care funding has failed to keep pace with 
medical inflation and the changing needs of the veteran 
population; VA has been forced to ration care by denying 
service to eligible veterans; VA has had to forego the 
modernization of many of its facilities and the purchase of 
necessary state-of-the-art medical equipment; VA is subject to 
an annual funding battle for limited discretionary funding.
    Additionally, the current discretionary funding process 
leaves VA facility administrators without a clear plan for the 
future.
    The American Legion urges this Committee to support 
legislation that would establish a system of capitation-based 
funding for veterans health care.
    Annual funding would be without fiscal year limitation, 
meaning that any savings VHA realized in a fiscal year would be 
retained rather than returned to the Treasury, providing VHA 
with incentives to develop efficiencies and creating a pool of 
funds for enhanced services, needed capital improvements, 
expanded research and development, and other purposes.
    The Veterans Health Administration is now struggling to 
maintain its national dominance in 21st century health care 
with funding methods that were developed in the 19th century.
    No other modern health care organization could be expected 
to survive under such a system. The American Legion believes 
that health care rationing for veterans must end. It is time to 
guarantee health care funding for all veterans.
    The American Legion believes that Congress should allow VA 
to bill, collect, and retain third-party reimbursements from 
Medicare on behalf of Medicare-eligible veterans.
    Nearly all veterans pay into Medicare for their entire 
working lives. However, when they are most likely to need 
medical services from the hospital system designed specifically 
for them, they must turn elsewhere because the VA cannot bill 
Medicare. This is wrong, and I urge you to correct this 
injustice.
    Additionally, all third-party reimbursements, copayments, 
and deductibles should be added to the budget, counted as an 
offset against it.
    The American Legion firmly believes that making VA a 
Medicare provider and designating VA medical care as a 
mandatory funding item within the Federal budget will enable 
the VA to fulfill its mission to care for those who have borne 
the battle.
    In March 1999, GAO reported that the VA could spend one of 
every four of its health care dollars operating, maintaining, 
and improving capital assets at its national major delivery 
locations, including 4,700 buildings and 18,000 acres of land 
nationwide.
    Recommendations stemming from the report included the 
development of asset-restructuring plans for all markets to 
guide the future investment decisionmaking, among other 
initiatives. VA's answer to GAO and Congress was the initiation 
and development of the Capital Asset Realignment for Enhanced 
Services, better known as CARES.
    The CARES initiative is a blueprint for the future of VHA. 
However, the American Legion is concerned that long-term care 
and mental health care were never factored into the CARES 
assessment. It is impossible to clearly plan the future of VA 
health care delivery without considering these two areas.
    In May 2004, the long-awaited final CARES decision was 
released. The decision directed VHA to conduct 18 feasibility 
studies at those health care delivery sites where final 
decisions could not be made due to inaccurate and incomplete 
information. VHA contracted with PricewaterhouseCoopers to 
develop a broad range of viable options and, in turn, develop 
business plans based on a limited number of selected options.
    To help develop those options and to ensure the 
stakeholders' input, then-VA Secretary Principi created the 
Local Advisory Panels, known as LAPs, which are now made up of 
local stakeholders. The final decision on which business plan 
option will be implemented for each site lies with the 
Secretary of Veterans Affairs.
    The American Legion is disappointed in the slow progress in 
the LAP process and the CARES initiative overall. Both Stage I 
and Stage II of the process included two scheduled LAP meetings 
at each of the sites being studied with the whole process 
scheduled for conclusion in February 2006. It was not until 
April of 2006, after nearly a 7-month hiatus, that Secretary 
Nicholson announced the continuation of the services at Big 
Spring, Texas, and like all the other sites, it had only been 
through Stage I.
    Seven months of silence is no way to reassure the veterans 
community that the process is alive and well. The American 
Legion continues to express concerns over the apparent short-
circuiting of the LAPs and the silencing of its stakeholders.
    Upon conclusion of the initial CARES process, then-
Secretary Principi called for a ``billion dollars a year for 
the next 7 years'' to implement CARES. The American Legion 
continues to support that recommendation and encourages the VA 
and Congress to move forward with a focused intent. The 
American Legion recommends a separate $1 billion for the 
implementation of CARES in fiscal year 2008.
    Historically, VA's long-term care has been the subject of 
discussion and legislation for nearly two decades. In a 
landmark July 1984 study, ``Caring for the Older Veteran,'' it 
was predicted that a wave of elderly veterans had the potential 
to overwhelm VA's long-term care capacity.
    Further, the recommendations of the Federal Advisory 
Committee on the Future of Long-Term Care in its 1998 report 
``VA Long-Term Care at the Crossroads,'' made recommendations 
that serve as the foundation for VA's national strategy to 
revitalize and re-engineer long-term care services. It is now 
2006, and that wave of veterans has arrived.
    Additionally, Public Law 106-117, the Millennium Health 
Care Act, enacted in November 1999, required the VA to continue 
to ensure 1998 levels of extended care services (defined as VA 
nursing home care, VA domiciliary, VA home-based primary care, 
and VA adult day health care) in its facilities. Yet VA has 
continually failed to maintain the bed levels mandated by law.
    VA's inability to adequately address the long-term care 
problem facing the agency was most notable during the CARES 
process. The planning for the long-term care mission, one of 
the major services VA provides to veterans, was not even 
addressed in the CARES initiative, which is touted as the most 
comprehensive analysis of VA's health care infrastructure that 
has ever been conducted.
    Incredibly, despite 20 years of forewarning, the February 
2004 CARES Commission Report to the Secretary of VA states that 
the VA has yet to develop a long-term care strategic plan with 
well-articulated policies that address the issues of access and 
integrated planning for the long-term care of seriously 
mentally ill veterans.
    The Commission also reported that VA had not yet developed 
a consistent method for the placement of long-term care units. 
It was not for the lack of prior studies that the VA has never 
had a coordinated long-term care strategy.
    The Secretary's CARES decision agreed with the Commission 
and directed VHA to develop a strategic plan, taking into 
consideration all the complexities involved in providing such 
care across the VA system.
    The American Legion supports the publication and the 
implementation of a long-term care strategic plan that 
addresses the increasing long-term care needs of America's 
veterans.
    We are, however, disappointed, that it has now been over 2 
years since the CARES decision and no plan of long-term care 
has been published.
    The American Legion believes that the VA should take 
America's aging veterans seriously and take proactive steps to 
provide the care mandated by Congress. Congress should do its 
part and provide adequate funding to the VA to implement its 
mandates.
    The American Legion supports current legislation that would 
ensure appropriate payments for the cost of long-term care 
provided to veterans in State veterans homes. Stronger 
oversight of assured payments to State veterans homes, full 
reimbursement for the treatment of veterans 70 percent service 
connected or higher, and the more efficient delivery of 
pharmaceuticals.
    It is vital that the VA meet the long-term care 
requirements of the Millennium Health Care bill, and we urge 
this Committee to support adequate funding for the VA to meet 
the long-term care needs of America's veterans.
    Mr. Chairman, the American Legion is committed to ensuring 
that the VA carries out its historic and statutory 
responsibility to provide medical care and benefits to those 
who have selflessly and honorably served in the defense of this 
Nation.
    There are approximately 2.6 million veterans receiving 
disability compensation, and the VA reports that this number is 
increasing at a rate of 5,000 to 7,000 veterans per month. VA 
reported that its 57 Veterans Benefits Administration regional 
offices issued more than 763,000 disability determinations in 
fiscal year 2005. Three and four percent increases are expected 
in fiscal year 2006 and 2007, amounting to approximately 
826,000 claims in fiscal year 2006 and 842,000 in fiscal year 
2007. A majority of these claims involve multiple issues that 
are legally and medically complex and at times time consuming 
to adjudicate.
    The increasing complexity of VA claims adjudication 
continues to be a major challenge for VA rating specialists.
    Since judicial review of veterans' claims was enacted in 
1988, the remand rate of those cases appealed to the United 
States Court of Appeals for Veterans Claims has historically 
been about 50 percent. In a series of precedent-setting 
decisions by the CAVC and the United States Court of Appeals 
for the Federal Circuit, a number of longstanding VA policies 
and regulations have been invalidated because they were not 
consistent with the statute.
    These court decisions immediately added thousands of cases 
to regional office workloads since they require the review and 
reworking of tens of thousands of completed and pending claims.
    As of August 19, 2006, there were more than 389,000 rating 
cases pending in the VBA system. Of these, 92,0947, or 23.6 
percent, have been pending for more than 180 days.
    According to the VA, the appeals rate has also increased 
from a historical rate of about 7 percent of all rating 
decisions being appealed to a current rate that fluctuates 
between 11 to 14 percent.
    This equates to more than 152,000 appeals currently pending 
at VA regional offices, with more than 132,000 requiring some 
type of further adjudicative action.
    While the number of claims and appeals has continued to 
increase, the FTE levels have decreased. Because VBA has lost 
much of its institutional knowledge base over the past 4 years, 
due to the retirement of many of its employees with over 30 
years of service, staffing at most regional offices is now 
mostly comprised of trainees and individuals with less than 5 
years of experience.
    Concern over adequate staffing in VBA to handle its 
demanding workload was addressed by the VA's Office of the 
Inspector General in its May 2005 report on variances in 
compensation payments.
    The bottom line is that the VBA must have enough people to 
handle its ever increasing workload. Expecting the VBA to do 
more work with less staff is not only unrealistic, it is also 
an unacceptable disservice to our Nation's veterans.
    Another area of concern is the review of the VA's 
compensation program being conducted by the Veterans' 
Disability Benefits Commission.
    The American Legion will remain vigilant in our efforts to 
monitor the Commission's activities. We welcome recommendations 
that will improve the delivery of benefits to our veterans and 
their dependents. However, we will adamantly oppose any 
recommendation that will take away or restrict current benefits 
or is otherwise unfair to America's veterans.
    Mr. Chairman, one other key issue of concern that I would 
like to highlight today is the American Legion's dedication to 
ensuring that VA is capable of meeting the mental health care 
needs of both the current population of veterans seeking care 
and the new generation of veterans returning from Iraq and 
Afghanistan.
    As the global war on terror continues, casualties are 
mounting and the ability of the Nation to take care of those 
who have fought bravely continues to be tested. We must not 
fail. History has shown that the cost of war does not end on 
the battlefield.
    Servicemembers do not all suffer from obvious injuries such 
as amputations, gunshot wounds, and other severely disabling 
conditions.
    The estimation has been as high as 30 percent of those 
serving in the war on terrorism will suffer the hidden wounds 
of traumatic stress and other psychiatric conditions due to 
combat exposure and the rigors of the battlefield.
    These new veterans should fare much better than their 
Vietnam veteran counterparts. Much more is known about the 
factors that predispose an individual to chronic PTSD, the 
qualities of the stressors that may lead to PTSD, and the 
factors in the post-trauma life course that may help or worsen 
PTSD symptoms.
    Today, more than 123,000 veterans are service connected for 
PTSD, most as a direct result of combat exposure.
    VA's Special Commitment on PTSD was established 20 years 
ago to aid Vietnam veterans diagnosed with PTSD.
    Since its establishment, the Committee has made many 
recommendations to the VA on ways to improve PTSD services.
    A February 2005 GAO report pointed out that the VA delayed 
fully implementing the recommendations of the Special 
Committee, giving rise to questions regarding VA's capacity to 
treat veterans returning from military combat who may be at 
risk for developing PTSD while maintaining PTSD services for 
veterans currently receiving them.
    In September 2004, the GAO also reported that officials at 
six of seven VA medical facilities stated that they might not 
be able to meet an increase in demand for PTSD services.
    Additionally, the Special Committee reported in its 2004 
report that sufficient capacity is not available within the VA 
system to meet the demand of new combat veterans and still 
provide services to other veterans.
    The additional support being provided nationwide by the Vet 
Centers is proving invaluable. Their mission is to seek out 
veterans suffering life readjustment problems related to their 
time in service and assisting them in all aspects of 
readjustment.
    Today, 206 Vet Centers are located in communities 
throughout the United States, District of Columbia, Puerto 
Rico, Guam, and the U.S. Virgin Islands. Sixty-five percent of 
the 737-member clinical staff are veterans and of those over 40 
percent are combat veterans.
    In April 2003, the Secretary of Veterans Affairs extended 
Vet Center eligibility to veterans of Operation Enduring 
Freedom and, later that same year, extended eligibility to 
veterans of Operation Iraqi Freedom.
    In February 2004, VA Under Secretary for Health authorized 
the Vet Center program to hire 50 OEF/OIF veterans to conduct 
outreach to their comrades from the global war on terrorism.
    These outreach counselors are in 34 States and in the 
District of Columbia. Additionally, on August 5, 2003, the Vet 
Centers were authorized to furnish bereavement counseling 
services to surviving parents, spouses, children, and siblings 
of servicemembers who die while on active duty, to include 
federally activated Reserve and National Guard personnel.
    As of January 31, 2005, Vet Centers had served 14,259 OIF/
OEF veterans and families, either at Vet Centers or at 
demobilization sites, 29 percent of which are PTSD clients.
    Vet Centers are an invaluable resource to veterans and the 
VA. Given the extended commitment of current combat operations, 
repeated deployments, and the importance of retaining 
experienced combat servicemen and women in an all-volunteer 
military, it is essential to promote the readjustment of 
servicemen and women and their families.
    The American Legion continues to be an unwavering advocate 
for Vet Centers and their most important mission.
    Over the past 3 years, the American Legion's System Worth 
Saving Task Force has completed site visits at every single VA 
Medical Center in the United States. During these site visits, 
we took special note of mental health services provided and at 
the ability of the facilities to balance the current demand for 
long-term care along with the recently returning veterans who 
are now turning to the VA for mental health care.
    Like the GAO report, we found that many facilities were 
increasingly concerned with their ability to handle an 
increasing mental health workload.
    Our site visits revealed a number of facilities that are 
forced to convert capital improvement dollars to health care 
dollars in order to meet the service demands of the current 
veteran patient population.
    The shifting of those funds has resulted in the delay of 
needed infrastructure repairs resulting in huge maintenance 
backlogs at facilities. The health care needs of VA, to include 
mental health services, must be funded at a level that will 
prevent the shifting of funds from one account to another.
    It is our obligation as a Nation to ensure that VA is 
funded at a level that will prevent the rationing of health 
care.
    Mr. Chairman, the American Legion appreciates the strong 
relationship we have developed with this Committee.
    With the increasing military commitments worldwide, it is 
important that we work together to ensure that the services and 
the programs offered through VA are available to the new 
generation of American servicemembers who are now returning 
home. You have the power to ensure that their sacrifices are 
indeed honored with the thanks of a grateful Nation.
    The American Legion is fully committed to working with each 
of you to ensure that America's veterans receive the 
entitlements they have earned. Whether it is improved 
accessibility to health care, timely adjudication of disability 
claims, improved educational benefits, or employment services, 
each and every aspect of these programs touches veterans from 
every generation. Together, we can ensure that these programs 
remain productive, viable options for the men and women who 
have chosen to answer the Nation's call because service to its 
Nation is a noble profession.
    The brave men and women who are serving in our Armed Forces 
in Iraq and Afghanistan and throughout the world deserve no 
less. I look forward to working with each of you throughout the 
next year to improve the lives of all Americans, especially its 
veterans, who deserve it.
    Thank you, Mr. Chairman, for the opportunity to be here.
    [Applause.]
    [The prepared statement of Mr. Morin follows:]

         Prepared Statement Paul A. Morin, National Commander,
                          The American Legion

[GRAPHIC] [TIFF OMITTED] T2203.001

[GRAPHIC] [TIFF OMITTED] T2203.002

[GRAPHIC] [TIFF OMITTED] T2203.003

[GRAPHIC] [TIFF OMITTED] T2203.004

[GRAPHIC] [TIFF OMITTED] T2203.005

[GRAPHIC] [TIFF OMITTED] T2203.006

[GRAPHIC] [TIFF OMITTED] T2203.007

[GRAPHIC] [TIFF OMITTED] T2203.008

[GRAPHIC] [TIFF OMITTED] T2203.009

[GRAPHIC] [TIFF OMITTED] T2203.010

[GRAPHIC] [TIFF OMITTED] T2203.011

[GRAPHIC] [TIFF OMITTED] T2203.012

[GRAPHIC] [TIFF OMITTED] T2203.013

[GRAPHIC] [TIFF OMITTED] T2203.014

[GRAPHIC] [TIFF OMITTED] T2203.015

[GRAPHIC] [TIFF OMITTED] T2203.016

[GRAPHIC] [TIFF OMITTED] T2203.017

[GRAPHIC] [TIFF OMITTED] T2203.018

[GRAPHIC] [TIFF OMITTED] T2203.019

[GRAPHIC] [TIFF OMITTED] T2203.020

[GRAPHIC] [TIFF OMITTED] T2203.021

[GRAPHIC] [TIFF OMITTED] T2203.022

[GRAPHIC] [TIFF OMITTED] T2203.023

[GRAPHIC] [TIFF OMITTED] T2203.024

[GRAPHIC] [TIFF OMITTED] T2203.025

[GRAPHIC] [TIFF OMITTED] T2203.026

[GRAPHIC] [TIFF OMITTED] T2203.027

    Senator Burr [presiding]. Commander, thank you so much for 
that very thorough testimony on behalf of not only your members 
but all veterans across America who will benefit from that 
insight.
    May I ask you to take the opportunity to introduce those at 
the table with you so they are not overlooked.
    Mr. Morin. Yes, Mr. Chairman. The Chairman of the National 
Legislative Commission Dave Rehbein, of Iowa; National Chairman 
of Veterans Affairs and Rehab, K. Robert Lewis, of Connecticut; 
Staff Director of VA&R, Peter Gaytan; and our Legislative 
Director Steve Robertson.
    Thank you, Mr. Chairman.
    Chairman Craig [presiding]. Senator, thank you for chairing 
in my absence. I had a couple of phone calls that were 
demanding my time, and, Commander, again, thank you very much 
for your very complete testimony and thoughts about the role of 
VA as it relates to our responsibilities.
    We do have a vote scheduled, I believe, for 11:15. I would 
hope that our colleagues would offer brevity in their questions 
so we can get to your responses. I will do that.
    I think it is important that we give our colleagues a 
chance or an opportunity to ask as many questions as possible.
    I appreciate, Commander, the position of American Legion as 
it relates to permanent funding or entitlement funding as an 
approach toward dealing with VA.
    At the same time, I cannot step back from the reality at 
hand. And the reality is that in the 6 years that our 
President, the current President, has been the Chief Executive 
of this country, the VA budget has increased 70 percent. That 
is better than 10 percent a year. It has increased faster than 
any other segment of our Government except the military, and 
that is pretty remarkable as it relates to the overall funding 
effort. We are now at nearly $80 billion in the 2007 budget.
    In my tenure as Chairman of this Committee, I will preside 
over the first $100 billion budget to veterans, and I am not 
going to blink and step back from that. In fact, I will be very 
proud of it. And I know we will sort through these differences 
over time, but I have to tell you, this Committee, while it 
criticizes itself on occasion and it criticizes the Congress as 
we work through these approaches, I cannot step back from being 
very proud of the effort at hand and that this country and our 
taxpayers are stepping forward at an unprecedented level to 
serve and provide for veterans in this country. That is a 
substantial increase, and many of us will criticize that it is 
probably not enough. But we will work hard to make sure that 
continues.
    With that comment, let me turn to my colleagues for any 
questions. Senator Burr, do you have any questions of the 
Commander?
    Senator Burr. Mr. Chairman, I will be extremely brief.
    You covered in great detail a lot of areas. I am curious, 
Commander, even though you mentioned the staffing problems, the 
inexperience, the need for training within the veterans appeals 
process, recently Judge Greene has called back two former 
judges to try to handle some of the backlog.
    Do you feel that that is enough, or are there more that 
need to be done?
    Mr. Morin. It is a Band-Aid approach to a major problem. We 
appreciate the additional two judges being called back, but 
when you look at the number of cases that still need to be 
heard, it will reduce the backlog for a short time period. They 
only have a limited time that they can serve as called-back 
judges. It will help the veterans.
    We would still continue to ask for more.
    And my point is the employees, when you have a turnover of 
Vietnam veterans as myself who gave their life in service to 
the VA, and all of a sudden reached a magic number to retire, 
and the mass exodus occurred. That is what caused us to have 
employees reviewing claims with 1 to 5 years' experience. And 
with that lack of base, long-term care knowledge, it has caused 
so many more veterans to file claims of appeals.
    Senator Burr. Well, I think, clearly, this Committee has 
shown their willingness to take this issue head on and try to 
resolve it, and I think the Chairman has committed to make sure 
that happens.
    As we all know, the Veterans' Administration has put 
together a fairly sound plan for reversing the pattern of 
neglect and the safeguard of personal identification, personal 
information, electronic data.
    Assuming that plan continues to work as expected and no 
further data loss occurs, what will be the next step that we 
need to make to re-establish that level of trust between 
veterans and the Veterans' Administration?
    Mr. Morin. I think the trust that has been broken will come 
in time, and as we all pray that none of that data was 
retrieved in any format, and only time will tell that. And if 
it is, I am sure that this Committee and the President would 
stand behind those veterans who were affected by the theft.
    I think the Veterans' Administration needs to look beyond 
where they are today with the technology that is available out 
there to many of us that we log into our computers is very 
simple, the technology out there of touching your fingerprint 
to the screen also puts another lock security in there, a 
computer looking at you into the retina of your eye.
    So there are many avenues out there that can put additional 
protections in there of safeguarding it. The trust of American 
veterans to the ones securing its data will come back when it 
is shown that the system has additional safeguards within it.
    Senator Burr. Thank you, Commander.
    Thank you, Mr. Chairman.
    Chairman Craig. Thank you, Senator.
    Senator Murray. Mr. Chairman, thank you very much. I will 
be quick. I know Senator Jeffords and Senator Obama have 
arrived and want to do opening statements or questions as well.
    I wanted to ask you--first of all, thank you so much for 
your very excellent testimony. As always, you give a very 
comprehensive view of what we really need to be focused on, and 
I appreciate your being very straight with us about the 
challenges that we face, and I look forward to working with 
you.
    I did want to touch on a couple of issues. One of them is 
the unemployment rate of 20- to 24-year-old veterans who are 
coming home from Iraq and Afghanistan. I am talking to a high 
number of young people coming home who cannot get employment, 
who are facing of being sent back to Iraq or who just come home 
and cannot get jobs. And I know the statistics back up the fact 
that we have double the number of young people between 20 and 
24 who are unemployed coming home from Iraq and Afghanistan 
than in the regular general population.
    Can you give us an idea on some of the things that you 
think the VA and DOD and Department of Labor should be doing to 
address this issue?
    Mr. Morin. I will have Peter Gaytan, one of our staff, 
respond to that question.
    Mr. Gaytan. Well, thank you, Senator, for your concern over 
that population of returning veterans who are running into 
major employment problems.
    The American Legion supports licensure and certification 
for those individuals who are in the military and who are 
leaving service. What DOD and what VA needs to do and what the 
American Legion is urging they do is take a look at when these 
young men and women put on the uniform and when they become 
trained jet engine mechanics or when DOD trains them to 
understand how to be a dental technician or a mechanic on a C-
5, the American public has an investment in that individual. 
Taxpayer dollars have educated and trained that individual. 
When they decide to take the uniform off and leave that gate 
and go back to the civilian community, we as a Nation already 
have an investment in their future, and we need to get a return 
on that investment.
    So, if the civilian licensing and certification is parallel 
with DOD training, when that individual walks out of the gate, 
they will not be struggling for employment.
    What they will be able to do is take that training and 
education into the civilian community and become a productive 
member of society. And, hopefully, we will see a decrease in 
that number of unemployed veterans who are coming back, because 
we as a Nation owe it to them to ensure that their lives are 
benefited by their service to this country, that they are not 
forgotten when they walk out of that gate. And the American 
Legion feels strongly about that, and we look forward to 
working with DOD, VA, and with this Committee to ensure that 
occurs.
    Senator Murray. Good. Thank you very much, and I look 
forward to working with you, too. I am deeply concerned about 
that. I have talked to young kids coming home after serving as 
a medic for a year, and they cannot even use what they learned 
on the fields in Iraq when they come home.
    Mr. Gaytan. And when that happens, they are not the only 
ones that are losing. We as a Nation are losing.
    Senator Murray. Right. Thank you very much. I appreciate 
that.
    The other issue, real quickly, I am hearing from a lot of 
OEF and OIF veterans who are really struggling to get the 
services they need, particularly our Guard and Reserve members 
who come home separated and out in very small communities and 
do not live near a base and do not necessarily hear about what 
is going on.
    Do you have any thoughts on what we can do to do a better 
job with our transition service, particularly for the National 
Guard and Reserves?
    Mr. Morin. We have been very fortunate. We just signed a 
Memorandum of Understanding with the Pentagon on Heroes to 
Hometown, and what we have done is produced a pamphlet that we 
have dispensed to all our posts and units and squadrons of the 
American Legion throughout this Nation.
    And with that Memorandum of Understanding, we have an 
individual who is working at the Pentagon who will take 
individuals' names and transmit them back to the post in that 
local community to be there to assist them. It is like a buddy 
system.
    Senator Murray. So you are getting access to that 
information.
    Mr. Morin. We are now getting access to that information, 
but that buddy system is important, so when he is home and he 
is having a hard time maneuvering the system, he can pick up 
the phone and call that buddy to assist him and work together 
on it and not become discouraged. And we are very proud of that 
Memorandum of Understanding that we have been able to sign.
    Senator Murray. Good. I hope to hear progress on making 
sure that is staying in effect, and I appreciate you working on 
that.
    Mr. Morin. We will.
    Senator Murray. Thank you, Mr. Chairman
    Chairman Craig. Patty, thank you very much.
    Let me turn to Senator Thune. John?
    Senator Thune. Thank you, Mr. Chairman, and, Commander, 
thank you again for your excellent testimony, comprehensive 
testimony. I appreciate your focus in a couple of areas.
    We had a wonderful celebration this past weekend in South 
Dakota; 32,000 people came out to recognize our Vietnam 
veterans and give them the welcome home that they never 
received. And it occurs to me there was a lot of closure that 
occurred for a lot of veterans at that event, and I know from 
friends that I have, Vietnam veterans, many of the wounds and 
the scars and the injuries that they come back with--and this 
is true, I think, of OIF and OEF veterans--are not just 
physical. And your emphasis on PTSD and the needs that are 
there and the need for the VA to be appropriately addressing 
that I think is something that we as a Committee--or I 
certainly am very interested in. I hope that we will be able to 
continue to explore how we make sure the resources are there to 
deal with the demands that are going to come, not only for the 
physical injuries but also the other injuries that our veterans 
have incurred in the previous conflicts.
    I want to combine a couple of questions because I know we 
are limited on the time here, and I would like to have you, if 
I could, address two things. One, I am very interested in rural 
veterans and delivery of health care in rural areas. As you 
know, I represent a very rural State.
    You have been in my State. We have been fortunate to have 
community-based outpatient clinics in several areas of my 
State, but we have a couple more that we are trying to get that 
have been on the books for a long time.
    You had referenced in your testimony concerns about the 
CARES initiative overall, particularly VA's consulting Local 
Advisory Panels, or LAPs, that you referenced in your 
testimony. I am concerned about the progress in that respect, 
too, because it is a program that has been so helpful in rural 
areas. And that is a focus of mine on this Committee as how do 
we provide better service to rural areas, and CBOCs has been a 
great mechanism for doing that.
    But my impression is that things have really slowed down.
    I am interested to get your thoughts, again, to maybe 
reinforce some examples of where that is the case, and what we 
need to be doing to further intensify our efforts to get these 
CARES initiative moving forward, and moving forward at a rate 
that I think we all want to see.
    And secondly, if you could just respond, it has been 
mentioned briefly here, the whole issue of privacy. No veteran 
ought to have their privacy compromised when it comes to their 
personal information, and there is absolutely no excuse for 
what happened a year ago--actually, it was not a year ago. It 
was several months ago. And it seems to me, at least, that one 
of the issues where that problem occurred has to do with the IT 
system at the VA. The VA has been in the process of trying to 
centralize their information technology functions. I am curious 
to know what the Legion's views are on the progress toward 
centralizing the IT function at the VA, placing them under the 
authority of the VA's CIO, and if that is something that you 
would like to see happen at a faster rate than is currently 
occurring as well.
    So, those are two issues--rural veterans/CARES initiative 
and the IT function at the VA--and what your views are with 
respect to what is going on there and what needs to be done. 
That is a lot to handle, and I apologize for putting it all 
into one question.
    Mr. Morin. This Committee has the power to make the CARES 
process happen by putting at least $1 billion in the budget for 
the CARES initiatives.
    We support CBOCs. We support access to quality health care 
of veterans as closest to their home as possible. And if in 
those areas that you speak of, CBOCs are the right way to go, 
then we would support that 100 percent.
    The IT issue, when we are talking about the security of 
information of veterans, yesterday was not fast enough. The 
centralizing of it, is that the answer that will make it 
happen? Yes, we support it if that is what is going to happen 
to secure the data of those veterans.
    I had the great opportunity to visit with the Chairman 
yesterday, and when we talk about putting $1 billion in the 
budget for CARES, we talk about those initiatives and you speak 
of CBOCs in your hometown, how is it going to happen? Is it 
going to happen on a political basis or is it going to happen 
where they need to happen?
    And I think the Chairman and I had a great discussion on 
this, and we took the aspect of how the State Veterans Home 
Program works in allocation of its money. I think if we see a 
mechanism put in place, the allocation of money for opening VA 
hospitals and CBOCs throughout this country in a fair and 
equitable way, where care to veterans is happening, you have 
succeeded in accomplishing something.
    Thank you.
    Senator Thune. Thank you. Mr. Chairman, I appreciate your 
response and, again, the views of this great organization. My 
father is a member of the American Legion in my hometown of 
Murdo, South Dakota, and as I said, areas in my State, as in 
yours, Mr. Chairman, I know this is an interest in which you 
have--you know, would like to see solutions as well. But those 
veterans in rural areas, particularly we get the older 
veterans, it is a real issue, making sure that we have access 
to health care for them in areas that are close to them.
    So I share your interest in moving that CARES initiative 
along, and I know that this Committee does, and we will do 
everything we can to make sure they have the funding to do 
that.
    So thank you, Mr. Chairman, for your testimony.
    Mr. Morin. Senator, I appreciate getting to know you and 
visiting your State and being out there with you and your 
sincere commitment to veterans. And I am still a negotiator.
    [Laughter.]
    Chairman Craig. Well done, Commander.
    Senator Thune. Well put. Thank you.
    Chairman Craig. Let me turn to our colleague from Vermont, 
Senator Jim Jeffords. Jim?
    Senator Jeffords. Thank you, Mr. Chairman. I am very 
pleased to be here today to hear from the American Legion about 
how we can improve care for our Nation's veterans.
    Mr. Morin, we greatly value your advice on both the 
legislative proposals and your observations about how policies 
are affecting the lives of veterans.
    I also would like to recognize Milt Willis of Vermont, who 
has provided decades of strong leadership for American Legion 
service and Vermont veterans. I appreciate his work.
    Mr. Morin, in Vermont, as in other States, we are working 
to provide care to an aging population that in some cases are 
hours away from existing veterans facilities.
    Private nursing homes do not provide the care specific to 
the needs of the veterans but are sometimes the only option to 
those who do not wish to travel hours from their families and 
communities.
    There has been a discussion of proposals to designate a 
certain number of beds for veterans in private nursing homes in 
areas distant from VA facilities. Do you feel that a system 
could be developed whereby private nursing homes could provide 
adequate care for aging veterans?
    Mr. Morin. Presently, the VA contracts with private nursing 
homes throughout America. That is one of our questions. In the 
facilities within the VA, there seems to be a trend that when 
they no longer can provide adequate medical care, they look for 
other placement. And if it is some veteran in need of long-term 
care, there are two options to the VA--or, actually three: they 
maintain them within their facility, they place them in a 
contract nursing home, and if that veteran is not 70 percent or 
more disabled, they pay up to 6 months. If he is more than 70 
percent, they continue to pay the full rate of that private 
nursing home. But if he is less than 70 percent, after 6 months 
that veteran then has to pay out-of-pocket. And it is sad to 
say that those veterans in most cases have very little money 
and then become a pauper and have to be put on Medicaid.
    The next avenue is State veterans homes. State veterans 
homes now provide 51 percent of long-term care to American 
veterans. States have accepted quite a bit of a responsibility 
in that.
    So as I said in my testimony, we support long-term care 
within the VA and within the State veterans homes. And do we 
support contract nursing home? Yes, if that is the best avenue 
available to the veteran in need.
    Senator Jeffords. Mr. Morin, as you know, 500,000 veterans 
are estimated to be homeless over the course of a year. The 
majority of these men and women have alcohol or drug abuse 
problems, and many face mental illness. I applaud the efforts 
of the American Legion to confront this very difficult 
challenge of ending homelessness.
    In your view, what specific strategies should the VA adopt 
to improve services to homeless veterans and bring us closer to 
the goal of ending homelessness among veterans within 10 years?
    Mr. Morin. Veterans' homelessness is not a new issue to us 
as a Nation. When you look back to the Civil War, how the State 
Veterans Home Program became shelters for homeless Civil War 
veterans. So it is not new to our society of homeless veterans.
    A lot of energy and funding has gone in to assist homeless 
veterans. But as I said in my testimony, the first piece is the 
mental health care of that veteran. The ravages of war do not 
end on the battlefield. It may be years later that mental 
health capacity is needed. You only need to work with a 
homeless veteran, as you said, and understand that mental 
illness is not being treated because there is inadequate space 
available within the VA for him to be treated, and watch a 
veteran's home life, his marriage being destroyed by that is 
tough to see. And that is why I said in my remarks that the VA 
through its CARES process failed to recognize the mental health 
capacity of veterans, and we need to address that issue first.
    If we truly want to address the mental health of veterans, 
we need to do that first, and we will reduce the homeless 
population. But we need to address that. You can give an 
individual a place to sleep. You can feed him three squares a 
day. But if you are not addressing that mental health aspect, 
we have let them down.
    Senator Jeffords. Thank you.
    Chairman Craig. Jim, thank you very much.
    Well, Commander, a vote is under way so I will make a 
concluding statement. First and foremost, let me thank you for 
being here today and being the advocate that you are.
    It is obvious by your testimony and by your response to 
questions that you are a compassionate Commander who takes his 
responsibility very, very seriously.
    Now, all of us here on this Committee are here by choice, 
and we are here to serve our veterans and to sort out the 
difficulties, the competition, if you will, for resources, and 
to do as best we believe this country can do to serve our 
veterans. It does not mean we always get it right, and that is 
why you are here, and that is why this is always work in 
progress.
    Your praise for the VA today and its employees is very, 
very appropriate. On the whole, there is no question in my mind 
in my connection with the VA and being at their facilities that 
in almost all cases they are phenomenally hardworking, 
dedicated people with the veterans' best interests in mind. And 
as we work through the budget and the budget processes, we will 
work with you and your organization and other veterans advocacy 
groups to get it as right as we can as it relates to our 
resources. And as you and I both agreed yesterday and, again 
today, there will be times when we disagree. But it will be 
done openly and publicly, and we will sort out those 
differences as we conclude the process on an annualized basis.
    I will continue to assure America's veterans that they will 
get all resources we can possibly gain for them to be applied 
in the right way. Many of our colleagues today spoke about the 
issue of IT. Just before you arrived in my office yesterday, 
the gentleman who has been nominated, whom we will hear from 
next week before the Committee, who will head up that division 
of the VA was there to visit with me.
    And I am pleased to announce that there is a comprehensive 
program now under way. And my admonishment, if you will, to 
this gentleman was: If you can get the IT process in hand the 
way you got electronic medical recordkeeping in hand that so 
dramatically helped improve the veterans health care and its 
quality that you represented earlier in your testimony, then VA 
will once again lead the Government in having handled this 
problem in an appropriate fashion in the construct of the 
culture and the attitude within the VA as it relates to how we 
handle this critical information and to do so on an ongoing 
basis.
    Technology got out in front of us. Not long ago, the 
Secretary sat before this Committee, where you are sitting 
today, and held up a little black box about this size, pulled 
it out of his shirt pocket and said, ``Twenty million names and 
addresses can go here.'' So it can be put in anybody's shirt 
pocket and taken off campus, off property.
    But if the culture is there, if the understanding is there 
of the value and the protocol, all that we have to do to assure 
that with some of the technologies that you referenced, we can 
help VA get this right. And they then can lead the country, as 
they are leading health care in the country today in this kind 
of technology.
    So, again, Commander, to you, to the American Legion, and 
to all who have assembled here today, let me thank you so very 
much for your presence, your testimony, your advocacy, and, 
most importantly, your patriotism. It is greatly appreciated. 
Thank you much.
    [Applause.]
    Mr. Morin. Thank you, Mr. Chairman.
    Chairman Craig. The Committee will stand adjourned----
    Senator Jeffords Mr. Chairman, I want to just give some 
accolades to you.
    Chairman Craig. Oh, well, in that case, we will reconvene.
    [Laughter.]
    Senator Jeffords. I just want to say that over the course 
of our lives together, I have watched you as you pursue the 
problems that we have in the area that is so great for all of 
us. I just want to thank you for all the effort you have put in 
and ask the audience if they agree with me that you are doing a 
heck of a great job.
    [Applause.]
    Chairman Craig. Thank you. Jim, that is very generous of 
you. Thank you very much. Now the Committee will stand 
adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
